                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM                                            I




Case Number: I 02100027
                                                                                 11          Page 1 of 1



         On October 2,2002, the OIG received information that the subject1posted an advertisement on
         the NSF Announce Bulletin Board advertising numerous items for sale2. The concern was that
         the advertisement may have violated NSF's policy regarding the use of the announce bulletin
         board by using NSF electronic resources to promote a business.

         The subject was initially interviewed and acknowledged the posting. During this interview and
         several subsequent interviews, the subject acknowledged selling and delivering all of the
         advertised items to NSF employees but refused to disclose the source of the items or the
         identities of the purchasers.
                                                                                                        I
         Additional investigative actions produced evidence that the items advertised and ultimately sold
         through the use of the Announce Bulletin Board were previously reported stolen, and an active
         investigation was underway by other law enforcement agencies3.

         Continued attempts to obtain the subjectb cooperation proved ineffective. After consulting with
         other.relevantinvestigative agencies and the United States Attorneys' Office of the ~asterri
         District of Virginia, the subject was granted immunity fi-om federal prosecution.

         On May 14,2003, a Report of Investigation (RoI)~was submitted to agency officials5detailing
         the facts of the investigation and identifying numerous administrative violations by the subject.
         The ROI identified the seriousness of the subject's refusal to fully cooperate and recommended
         that the employee be terminated.

        On January 30,2004, we received notification that the subject had resigned hislher position at
        NSF prior to the agency's final decision of their proposed removal. Offical documenation, in the
        form of a Notice of Personnel Action (SF50) was received on February 10,2004. It documented
        the subject's resignation and identified an effective date of January 3 1,2004~.

         Accordingly, this case is closed.




'SF OIG Form 2 (1 1/02)
                                                                                                    i
